HHS/OIG-Audit-"Audit of Medicare Part B Services Billed by Community Urgent Care Medical Group for the Period January 1, 1995 through July 31, 1999,"(A-09-00-00089)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Part B Services Billed by Community Urgent Care Medical
Group for the Period January 1, 1995 through July 31, 1999," (A-09-00-00089)
November 15, 2001
Complete
Text of Report is available in PDF format (1.98 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to examine the Medicare Part B payments for
services billed by Community Urgent Care Medical Group (Community) for the
period January 1, 1995 through July 31, 1999 to determine if the payments (about
$3.7 million) were appropriate.  Our review disclosed that 29 services
in our random, statistical sample of 100 claims (135 services) were overpaid.  The
29 overpaid services included 23 which had been upcoded, 3 for which the documentation
did not support the services billed, and 3 for which the documentation did
not support that a teaching physician was present when a resident performed
the service.  Based upon our random sample, we estimate that Community
received $266,236 in Medicare overpayments during the audit period.  We
are recommending that Community refund the identified overpayment.